APPENDIX
United States v. Stephen Cometa, 966 F.3d 1285 (11 th Cir. 2020)

Case: 19-11282

Date f{nEl'.llf:2)&'03/2020

Page: 1 of 20

[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11282
D.C. Docket No. 5:16-cr-00044-JDW-PRL-1

UNITED STATES OF AMERICA,
versus

Plaintiff-Appellee,

STEPHEN CO1\1ETA,
Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Florida
(August 3, 2020)
Before WILLIAM PRYOR, Chief Judge, ROSENBAUM and LUCK, Circuit
Judges.
WILLIAM PRYOR, Chief Judge:
This appeal requires us to decide whether the district court abused its
discretion by not holding additional competency hearings before the trial and the
sentencing of Stephen Cometa after it previously had his competency evaluated

Case: 19-11282

Date l{Rauf:~03/2020

Page: 2 of 20

and found him competent. We affirm Cometa's conviction and sentence because
the expert opinion that Cometa was competent and his evident and continued
understanding of the proceedings and ability to consult with his counsel and assist
his defense establish that no bona fide doubt about his competency arose after the
district court found him competent.
I. BACKGROUND
In December 2016, Cometa, a military veteran, went to a Veterans Affairs
clinic in The Villages, Florida, with two semiautomatic firearms and ammunition.
He banged on the office door of a psychiatrist, who opened the door and saw
Cometa brandishing a rifle and saying, "Now you're going to have to listen to me."
The psychiatrist and another person in the room struggled with Cometa for the
rifle, which discharged twice. Veterans Affairs officers soon arrived, wrestled the
rifle from Cometa, and took him into custody. No one was injured in the incident.
In an interview with the Federal Bureau of Investigation, Cometa said that he was
unhappy with the treatment he received from the clinic for his chronic pain and
posttraumatic stress disorder.
A grand jury returned a two-count indictment against Cometa about a week
later. It and a superseding indictment charged Cometa with one count of forcibly
assaulting, intimidating, or interfering with a federal employee-the psychiatristwhile using a firearm, 18 U.S.C. § 11 l(a), (b), one count of forcibly resisting or
2

Case: 19-11282

Date F{&mf:1)&'03/2020

Page: 3 of 20

opposing federal employees-the two Veterans Affairs officers-while using a
firearm, id. § 111 (a), (b ), and one count of using, carrying, and discharging a
firearm during and in relation to the offenses in counts one and two, which were
crimes of violence, id § 924(c)(l)(A)(iii).
Two days after Cometa's arrest, his counsel hired Dr. Michel Herkov, a
licensed psychologist, to evaluate his competency. Dr. Herkov briefly met with
Cometa, performed a "mental status examination," and interviewed Cometa and
his counsel. Dr. Herkov opined that Cometa was currently suffering from bipolar
disorder and was incompetent because, most importantly, he would have difficulty
assisting with his defense. But he also predicted that treatment could restore
Cometa's competency within 60 to 90 days.
Cometa filed an unopposed motion for a competency evaluation based on
Dr. Herkov's report. See 18 U.S.C. § 424l(a), (b). The district court granted the
motion, after which Dr. Lisa Feldman, a forensic psychologist, evaluated Cometa.
After two months, Dr. Feldman concluded that although Cometa refused "to
participate in any formal psychological testing," he was "actively displaying
symptoms of a mental disorder" and was not competent.
The district court held a competency hearing in May 2017. Relying on Dr.
Feldman's evaluation and the parties' agreement that the district court should
follow her recommendation, the district court ordered Cometa to be committed to
3

Case: 19-11282

Date 1{4le:af: 1}E}'03/2020

Page: 4 of 20 ·

the custody of the Attorney General to have his competency restored. Mentalhealth professionals, including Dr. Evan Du Bois, a forensic psychologist,
evaluated and treated Cometa for about four months.
Dr. Du Bois diagnosed Cometa with borderline personality disorder and
posttraumatic stress disorder, but he reported that Cometa had become competent
after treatment. Cometa returned to a local jail.
A couple months later, defense counsel told the district court that she and
Dr. Herkov were concerned that Cometa had become incompetent again because
the jail was not forcing him to take his medication. Cometa's counsel later filed
notice of her intent to rely on the insanity defense and a report by Dr. Herkov that
questioned Cometa's competence. Because of the insanity-defense notice, the
government moved for an examination to determine the existence of insanity at the
time of the offense. The district court ordered Cometa to be re-committed to the
custody of the Attorney General for both an evaluation for the insanity defense and
of his competency.
In June 2018, Dr. Du Bois reported that Cometa remained competent to
stand trial. He explained that Cometa "is suffering from a mental disease" and that
his personality disorder causes his "presentation ... to fluctuate" because of
changes in his environment and his perception that "his needs are not being met."
But, he opined, Cometa's fluctuations did not reflect that he was incompetent. He
4

Case: 19-11282

Date ft5allf:2}&'03/2020

Page: 5 of 20

stated that medication could help but that it might be unnecessary because Cometa
was competent during the evaluation period even though he was not on medication.
He also reported that Cometa had made statements that could suggest a lack of
understanding, such as that he wanted to plead guilty on the condition of being
sentenced to death and executed within 30 days. But Dr. Du Bois relied on
Cometa's numerous rational and accurate statements to opine that Cometa
understood the proceedings. Cometa discussed with Dr. Du Bois the penalties he
faced and possible defense strategies, such as requesting a change in venue because
of his concern that "the political atmosphere and public sentiment" in the area
following a school shooting could hurt his case. Dr. Du Bois also opined that
Cometa did not satisfy the requirements for the insanity defense.
The district court held a competency hearing and arraignment in July 2018.
Cometa was represented by new counsel, whom the district court appointed after
Cometa stated in a pro se motion that he told his previous counsel not to pursue the
insanity defense and that he was frustrated about the delay from the competency
evaluations because he was competent and had been the entire time. His new
counsel said that he believed Cometa was competent based on their interactions.
And after reviewing Dr. Du Bois's report with Co meta, counsel said he and
Cometa had no problem with the district court relying on that report for its
competency finding. He also acknowledged that he spoke to Dr. Herkov before the
5

Case: 19-11282

Date 1{6e:nf:1l&'03/2020

Page: 6 of 20

hearing-who had opined six months earlier that Cometa was incompetent-and
that Dr. Herkov said "that competency is such a fluid thing that his opinion
wouldn't have any validity today anyway." The district court found that Cometa
was competent. See 18 U.S.C. § 4241(e). It then conducted the arraignment. The
government read the charges and potential penalties, the district court informed
Cometa of his rights, Cometa confirmed that he understood, and he pleaded not
guilty by reason of insanity.
The district court held another arraignment after the grand jury returned the
superseding indictment, which added the count of forcibly resisting or opposing
the Veterans Affairs officers with a firearm. At the second arraignment, Cometa
refused to confirm his understanding of the charges or penalties he faced and
argued that "everything that's happened in this court has been a violation of my
constitutional rights." Cometa continued to complain about the government
violating his constitutional rights and trying to kill him, and Cometa's counsel
explained that Cometa was feeling "anguish" and was "hung up on the idea" that
the superseding indictment would cause delay. When the district court asked
Cometa how he wanted to plead, Cometa said his lawyer knew his desired plea,
and his counsel explained that Cometa had instructed him "on a couple of previous
occasions to enter a ... plea of guilty with the condition that he be put to death
within 30 days." Counsel said that these statements did not make him think
6

Case: 19-11282

Date F{ifanf:1)'&'03/2020

Page: 7 of 20

Cometa was incompetent. The district court found that Cometa understood the
charges and penalties, even though he refused to affirmatively say so, and that
Cometa was "upset and visibly annoyed that new charges were filed."
Shortly before trial, the district court granted Cometa's request for a
continuance and recommended transferring Com eta to a different jail where
Cometa believed he would receive better treatment. The district court found that
Cometa's "competency can be fluid and that his mental state can be fragile."
The trial began in December 2018, about five months after the district court
found that Cometa was competent. On the first day, Cometa's counsel told the
district court that he "would suggest some type of competency inquiry, if the court
or the government were interested" because he became "a little bit concerned" the
previous day about Cometa's competency. He explained that Cometa was back at
the previous jail, which might be affecting him. He also reviewed Cometa's history
of competency examinations and hearings and said that Dr. Herkov was
unavailable to speak to Cometa that day because counsel was not going to have
him testify until later that week. Counsel also qualified that when he said Cometa
was competent before the first arraignment he had not reviewed Dr. Herkov's
report from December 2017, which opined that Com eta was incompetent, because
Cometa's previous counsel had not provided it.

7

Case: 19-11282

Date 1{8emf:2l&'03/2020

Page: 8 of 20

Cometa told the district court that he was unhappy with his treatment in the
jail and that he wanted new counsel. He said he had not received his medication
since returning to the jail, but the district court found that this allegation was
"simply incorrect" the next day when it learned that Cometa had been refusing to
accept his medication. Cometa also disagreed with his counsel's decision to pursue
the insanity defense. Cometa said he needed new counsel because he did not "feel
[he was] competent enough to represent [himself], even though [he was] competent
to stand trial." After hearing from Cometa and his counsel, the district court found
"that Mr. Cometa ha[ d] not expressed good cause to discharge" his counsel
because he established only that they "simply disagree[d]," not that there was "a
complete breakdown of communication or an irreconcilable conflict." Indeed, it
found that they conferred as clients and lawyers should.
Cometa was unhappy that he was not appointed new counsel and said he did
not want to be present during trial. The district court sought to confirm whether
Co meta wanted to be present and whether he opposed his counsel's reliance on the
insanity defense, but Cometa refused to answer. After a brief recess, Cometa said
that because he was "under considerable psychological and physical duress," his
"only option [was] to plead guilty and throw [himself] on the mercy of the Court."
The district court refused to accept his plea and told counsel he was "free to
proceed in the best interests" of his client, who asserted he was an "enemy
8

Case: 19-11282

Date 1{8811f:1}&'03/2020

Page: 9 of 20

combatant" and "a POW being tried." The district court said, "I'm ... beginning
now to think, Mr. Cometa, maybe we need to have you evaluated. Or are you just
going to put on a show?" Cometa said he was "not putting on a show," that he and
other veterans swore an oath to the Constitution, and that he continues to take that
oath seriously. The district court told Cometa's counsel that he could talk to
Cometa at lunch about entering a guilty plea, but the trial would proceed until then.
Cometa's counsel and the government presented testimony about Cometa's
mental health. Dr. Herkov explained that Cometa "had a long history of severe
mental illness." Cometa had a history of suffering from paranoia, delusions, and
hearing voices, and he also was diagnosed with bipolar disorder and had been
prescribed psychotropic drugs, which doctors prescribe only if"they have real
concerns." He also explained that Cometa had a history of refusing to take his
medicine, which is common in people suffering from paranoia. Dr. Du Bois
testified for the government. He explained that he spent over 200 days evaluating
Cometa and diagnosed him with posttraumatic stress disorder and borderline
personality disorder but not bipolar disorder. Borderline personality disorder is
ongoing and possibly causes "fluctuations in mood and irritability" but does not
have the "big spikes of mania" that occur in bipolar disorder.
Before the end of trial, the district court asked Cometa whether he planned
to testify. The district court explained Cometa's rights, but Cometa said he was
9

Case: 19-11282

Date l{ff(kbfflB19)3/2020

Page: 10 of 20

"not sure [he] completely underst[ ood] ." So the district court explained again, and
Cometa said "there [were] a lot of factors that [were] weighing on [his] mind
... [a]bout [his] ability to testify." He also said he felt "undue pressure that [was]
interfering with [his] ability to make that choice." Cometa conferred with his
counsel, and they decided that Cometa would think about it overnight and
announce his decision in the morning.
In the morning, Cometa said that he would like to testify but that he had
"been under extreme emotional and physical duress for ... the whole week," and
that "mental duress and physical duress" made him feel unprepared to testify. The
district court explained that "[t]rials are stressful, particularly for defendants." And
it found that Cometa was "clearly physically and mentally capable of testifying"
and was coherent and understood his rights, even though he was "pretending not to
be able to." Cometa complained that he faced "very serious charges" with the
possibility of imprisonment for the rest of his life and that "several factors outside
of [his] control ... ha[d] interfered with [his] right to assist [his] defense counsel."
After a brief recess, Cometa's counsel informed the district court that Cometa
chose not to testify, and Cometa confirmed his decision. The jury found Cometa
guilty as charged.
Three months later, the district court held a hearing on Cometa's prose
motion to proceed pro se and to receive a presentence psychological evaluation.

Case: 19-11282

Date l{n~mf0Bf~3/2020

Page: 11 of 20

Cometa was unhappy with his counsel's handling of his case and complained of
"irreconcilable differences." When the district court questioned Cometa to make
sure his requested waiver was knowing and voluntary, Cometa said he understood
that he was convicted but that he was "wrongly convicted because [his] rights
[were] violated." And he said he "underst[ood] that the United States Government
ha[d] been trying to take [his] life for the last eight years." Cometa also raised
objections to the presentence investigation report, complained about his treatment
in the jail, and explained that he wanted a psychological examination because the
report alleged that he was a danger to the community.
The district court again tried to determine whether Cometa's requested
waiver of counsel was knowing and voluntary by reviewing the penalties in the
report and asking if Cometa understood. Cometa confirmed that the maximum
penalties were "[b]etter known as life" because of his age, and he understood that
"the minimum recommended [sentence] is 190 months." Cometa confirmed that he
understood the sentencing procedure but said he did not understand why the
district court did not have "the guts to come out and kill [him] right away." He said
he felt he was being tortured in jail. His counsel confirmed that Cometa was
unhappy with his representation. He also mentioned that Cometa may be seeking a
competency evaluation, but Cometa confirmed that he was not. Cometa made clear
he wanted a psychological evaluation because of the recommended enhancement
11

Case: 19-11282

Date ~n@cbfOBfQ)3/2020

Page: 12 of 20

in the report for being a danger to the community and because he wanted to argue
for a downward departure based on reduced mental capacity at the time of the
cnme.
The district court found that although it was unwise for Cometa to represent
himself, he knowingly and voluntarily chose to do so, and it dismissed his counsel
and allowed him to proceed prose. The district court also denied Cometa's request
for a psychological examination because it already had the benefit of multiple
psychological reports.
The district court sentenced Com eta in March 2019. Co meta had moved for
the appointment of counsel, but the district court explained that Cometa had
knowingly and voluntarily waived his right to counsel and was not entitled to new
counsel. Cometa then unsuccessfully requested a continuance pending a Supreme
Court decision that he thought might be relevant and unsuccessfully objected to
portions of the presentence investigation report. And he explained his history of
mental-health issues and apologized for committing the crime. The district court
stated that "[w]ithout question, ... Mr. Cometa suffers and did suffer from a
severe mental disease or defect which impaired his ability to control his conduct."
It sentenced Cometa to concurrent 87-month terms of imprisonment on counts one

and two and a consecutive 120-month term of imprisonment on count three. It also

12

Case: 19-11282

Date ~n~mfQBf~3/2020

Page: 13 of 20

recommended that the Bureau of Prisons evaluate Com eta to find an appropriate
prison because "Cometa need[ ed] mental health treatment and counseling."

II. STANDARD OF REVIEW
We review for abuse of discretion the decision of a district court not to hold
a competency hearing. United States v. Perkins, 787 F.3d 1329, 1339 (11th Cir.
2015).

III. DISCUSSION
Defendants have a right under the Due Process Clause of the Fifth
Amendment not to be tried or convicted while incompetent. Id. "[W]ithout
competence, a defendant cannot meaningfully exercise his other constitutionally
guaranteed rights," and "trying an incompetent defendant is like trying an absent
defendant." United States v. Wingo, 789 F.3d 1226, 1235 (11th Cir. 2015); see also
Drape v. Missouri, 420 U.S. 162, 171 (1975). A defendant is competent if he
"possess[es] the 'capacity to understand the nature and object of the proceedings
against him, to consult with counsel, and to assist in preparing his defense."'
Wingo, 789 F.3d at 1234-35 (quoting Drape, 420 U.S. at 171). A defendant may
be competent to stand trial even if he "suffer[s] from severe mental illness."
Indiana v. Edwards, 554 U.S. 164, 175-76, 178 (2008); see also Medina v.
Singletary, 59 F.3d 1095, 1107 (11th Cir. 1995). Competency is a requirement
throughout an entire trial. Perkins, 787 F.3d at 1339.
13

Case: 19-11282

Date l{ff~cbfQBf(})3/2020

Page: 14 of 20

The Due Process Clause also guarantees a right to a competency hearing
when "the court learns of information that raises a bona fide doubt regarding the
defendant's competence." Wingo, 789 F.3d at 1235 (alteration adopted) (internal
quotation marks omitted); see also James v. Singletary, 957 F.2d 1562, 1569-70
(11th Cir. 1992) (comparing claims challenging competency with claims
challenging the failure to hold a hearing); Medina, 59 F.3d at 1106 (same). This
right is also guaranteed by a statute, 18 U.S.C. § 4241(a), which requires a district
court to order sua sponte a competency hearing if it "has 'reasonable cause to
believe that the defendant [is not competent],"' United States v. Dixon, 901 F.3d
1322, 1341 (11th Cir. 2018) (alteration in original) (quoting 18 U.S.C. § 4241(a)).
The bona-fide-doubt standard satisfies the reasonable-cause requirement in section
4241(a). Wingo, 789 F.3d at 1236.
To determine whether a hearing is required, three factors are relevant: "prior
medical opinion regarding the defendant's competence," "evidence of the
defendant's irrational behavior," and "his demeanor at trial." Dixon, 901 F.3d at
1341 (internal quotation marks omitted). "[T]here are, of course, no fixed or
immutable signs which invariably indicate the need for [a hearing]," so courts
"must consider the aggregate of evidence." Wingo, 789 F.3d at 1236 (internal
quotation marks omitted).

14

Case: 19-11282

Date l{n&bf0Bf~3/2020

Page: 15 of 20

Cometa argues that the district court should have held a competency hearing
because it knew that he was previously declared incompetent, that he needed to
take medication to restore his competency, that he had not received his medication
for several days before the trial, that his attorney requested a competency
evaluation before trial, and that he "exhibited other indications" that "called his
competency into question." The government responds that the district court did not
abuse its discretion because it found before trial "that Cometa was competent to
stand trial and nothing that occurred after that required [it] to revisit that
determination." We agree with the government because Cometa demonstrated a
continued understanding of the proceedings, ability to consult with his counsel, and
ability to assist with his defense. The indicia of incompetency on which Cometa
relies did not compel the conclusion that a bona fide doubt about Cometa's
competency arose.
Cometa argues that prior medical opinions supported the need for a hearing,
but we disagree. Dr. Du Bois evaluated Cometa twice and reported that Cometa
was competent, even though he was not taking medication and made statements
that could suggest incompetence, such as a desire to plead guilty and be executed
within 30 days. Cometa argues that the opinions of Dr. Herkov and Dr. Feldman
are entitled to more weight, but we see no abuse of discretion, especially because
of the length and recency of Dr. Du Bois's evaluations. See Pierce v. Underwood,
15

Case: 19-11282

Date l{ffScbfOBf9)3/2020

Page: 16 of 20

487 U.S. 552, 559-60 (1988) (explaining that the abuse-of-discretion standard is
deferential because district courts are in a better position to evaluate evidence). Nor
do we agree that Dr. Du Bois's opinion and the district court's competency finding
that relied on his report are not entitled to weight because of defense counsel's
stipulation to the report and failure to review Dr. Herkov's latest report. The
district court allowed counsel to review Dr. Du Bois's report at the hearing before
he chose to stipulate to it, and counsel said that he spoke to Dr. Herkov, who told
him that his evaluation was not recent enough to be relevant. And any other
limitations on the presentation of evidence at the hearing were the choice of
Cometa's counsel, not the district court. The district court read Dr. Du Bois's
report, observed Cometa, heard from Cometa's counsel, and gave Cometa's
counsel the opportunity to present whatever evidence he wanted.
Evidence of Cometa's irrational behavior also did not compel a hearing.
Cometa highlights his stated desire at the second arraignment to plead guilty on the
condition of being executed within 30 days, his many statements about the
government "trying to kill" him, his statement that he could not represent himself
at trial because of his mental illness, and his refusal to take his medication. But
Cometa made similar statements to Dr. Du Bois, who nevertheless opined that
Cometa was competent in the light of Cometa's many accurate and rational
statements about the proceedings. The existence of these kinds of statements at the
16

Case: 19-11282

Date ftOicbfQBfQ)3/2020

Page: 17 of 20

time of the competency finding supports that Cometa continuing to make these
kinds of statements did not give rise to a bona fide doubt about his competence.
And Dr. Du Bois's opinion is supported by the record, which establishes that
Cometa continued to understand the proceedings-including the actual penalties he
faced-and to work with his counsel. For example, Cometa confirmed his
understanding of the sentencing procedure and rationally discussed the penalties he
faced at the hearing to waive his right to counsel before sentencing. And he
communicated with his counsel throughout trial and sought his guidance when he
was faced with difficult decisions such as whether to waive his right to counsel and
whether to testify. Cometa's resistance to his counsel's reliance on the insanity
defense does not change this conclusion. Refusing to work with defense counsel is
not necessarily proof of incompetency because what matters is the ability to work
with counsel. United States v. Heard, 762 F.3d 538, 542 (6th Cir. 2014); United
States v. Flores-Martinez, 677 F.3d 699, 707 (5th Cir. 2012); United States v.
Battle, 613 F.3d 258, 262-63 (D.C. Cir. 2010); United States v. Vachon, 869 F.2d

653, 655 (1st Cir. 1989). Dr. Du Bois opined that Cometa was capable of assisting
his counsel, even though his "guarded and hostile presentation ma[ de] it difficult to
work with [him] and obtain his cooperation." And as discussed, Cometa
demonstrated that ability. For example, at the hearing on Cometa's request for a

17

Case: 19-11282

Date l{n8cbf<JBf~3/2020

Page: 18 of 20

continuance, his counsel said that Cometa was open to pursuing the insanity
defense and was reviewing paperwork related to his mental-health evaluations.
Cometa's other arguments regarding his purportedly irrational behavior also
lack merit. Although Cometa stated that he did not feel competent enough to
represent himself, he qualified that statement by saying that he was competent to
stand trial. Whatever relevance a defendant's own opinion of his mental state may
have, Cometa continued to demonstrate his competence to stand trial through his
understanding of the proceedings and communications with counsel. Nor did
Cometa's intermittent refusal to take his medication raise a bona fide doubt
because Dr. Du Bois opined that medication was likely unnecessary to maintain
Cometa's competency.
Cometa's demeanor at trial also did not compel a hearing. As Cometa
concedes, the district court found at several points that he was coherent and able to
communicate with his counsel. But he argues that we should place more weight on
his counsel's request for a hearing the first day of trial and again at the hearing
before sentencing. He also argues that he felt "undue pressure" about whether to
testify, that he did not "completely understand" his right, and that he appeared
"discombobulated" at various points.
To be sure, Cometa's counsel expressed concern about Cometa's
competency the morning of the first day of trial and "suggest[ ed] some type of
18

Case: 19-11282

Date l{n@cbfCIBf(j)3/2020

Page: 19 of 20

competency inquiry, if the court or the government were interested." But the
district court spent considerable time speaking to Cometa about his rights, his trial
strategy, and his complaints about his counsel before beginning the trial. After
Cometa said he was an "enemy combatant, a POW being tried," the district court
said it was "starting .. . to think, Mr. Cometa, maybe we need to have you
evaluated. Or are you just going to put on a show?"
The district court did not abuse its discretion in not holding a hearing
because it observed Cometa in person and could have concluded that Dr. Du Bois's
report supported that Com eta was competent but acting out because of his
frustration that things were not going his way-he had recently returned to the jail
he disliked, and the district court had denied his request for new counsel, allowed
his counsel to rely on the insanity defense, and refused to accept his guilty plea.
And before sentencing, Cometa's counsel did not actually suggest that a
competency hearing was necessary but only that he thought Cometa was requesting
one, which he was not.
Nor do we agree that the district court abused its discretion because Com eta
appeared "discombobulated." Cometa supports this contention only by referencing
his statements at the hearing on whether he would testify that he felt "undue
pressure" and "duress" and did not "completely understand" his right to testify.
But, as Cometa concedes, the district court found Cometa to be "coherent," to
19

Case: 19-11282

Date 1{1UJcbfaBfQ)3/2020

Page: 20 of 20

understand his rights, and to be capable of testifying. We see no clear error in that
assessment.
Considering these factors alone or iri the aggregate establishes that the
district court did not abuse its discretion by not holding competency hearings
before the trial or sentencing. The district court spent considerable time observing
and speaking to Cometa, and Cometa demonstrated his understanding of the
proceedings, ability to work with his counsel, and ability to assist with his defense.
IV. CONCLUSION

We AFFIRM Cometa's conviction and sentence.

20

Case: 19-11282

Date(2'ff EDf: 1>&'03/2020

Page: 1 of 1

UNITED ST ATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUIWING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith

For rules and forms visit

Clerk of Court

WWW.cal 1.uscourts.c ov

August 03, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-11282-V
Case Style: USA v. Stephen Cometa
District Court Docket No: 5: 16-cr-00044-JDW-PRL-1

This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 4l(b).
The time for filing a petition for rehearing is governed by I Ith Cir. R. 40-3, and the time for filing a petition for
rehearing en bane is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en bane is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
ofa motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en bane must include in the Certificate oflnterested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en bane. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_ evoucher@cal l .uscourts.gov for questions regarding CJA vouchers or the e Voucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Bryon A. Robinson at (404 ) 335-6142.
Sincerely,
DA YID J. SMITH, Clerk of Court
Reply to: JeffR. Patch
Phone#: 404-335-6151
OPIN-1 Ntc oflssuance of Opinion

